  <@-
  .
  z
                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS
   4
      o          \O                           CLOSEOUT MEMORANDUM
       ON D AT


 Case Number: A-06090043                                                                        Page 1 of 1



          We received an allegation from the complainant1 that the NSF proposal submitted by subjects 1,
          2, and 3,2 contained some material that was taken (intellectual theft) from one of the
          complainant's earlier NSF proposals.3 It was alleged that the objectives, goals, and methodology
          presented in the subjects' proposal were very similar to those presented in the complainant's
          proposal. Further, the complainant alleged that the dataset to be used by the subjects as presented
          in the NSF proposal was taken from another scientist without permission.

          Our review showed that there were actually two scientists working together and developing the
          dataset. The two scientists had received, jointly, funding to develop a field laboratory that would
          generate data of a very specific n a t ~ r e .Further,
                                                         ~       the subjects' proposal clearly indicated their
          working relationship with one of the two scientists. The complainant was unaware that the
          original funded project was jointly sponsoring the two scientists. As such, each scientist could
          develop, independently, additional working relationships with others to continue the data taking
          process and modeling of results. Finally, because each proposal with each scientist planned to
          utilize the existing field laboratory, each had similar objectives, goals, and methodologies, with
          very different modeling plans.

          We concluded that there was no substance to either allegation. This case is closed and no further
          action will be taken.

                                                       .   .




NSF OIG Fo~m2 (1 1/02)
